XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6168
Facsimile: (916) 731-2122
E-Mail: Idan.Ivri@doj.ca.gov

September 11, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
RE:

James Michael Fayed v. California
No. 20-244
Request for Extension of Time to File Brief in Opposition to Petition for Writ of
Certiorari

Dear Mr. Harris:
I represent the respondent State of California in the above-entitled case. The petition for
writ of certiorari was filed on August 26, 2020. The brief in opposition to the petition is
currently due on September 30, 2020. Pursuant to Rule 30.4, I respectfully request that the time
for filing that brief be extended by thirty days, to Friday, October 30, 2020.
An extension of time would better enable the preparation of a response that respondent
believes would be most helpful to the Court.
Accordingly, I request that the due date for the brief in opposition to the petition for writ
of certiorari be extended to October 30, 2020.
Sincerely,

/s/ Idan Ivri
IDAN IVRI
Deputy Attorney General
For

XAVIER BECERRA
Attorney General

cc: Kelly Christine Quinn, Counsel for Petitioner

